U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John Matthew Gayden, Jr. v. United States, No. 20-7896
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 27, 2021.
The government’s response is now due, after one extension, on July 1, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 30, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7896
GAYDEN, JOHN MATTHEW, JR.
USA

KATHERINE HOWARD
OFFICE OF THE FEDERAL DEFENDER
201 S. ORANGE AVE.
STE. 300
ORLANDO, FL 32801
407-648-6338
KATHERINE_HOWARD@FD.ORG

